No. ___________
IN THE SUPREME COURT OF THE UNITED STATES

GREGORY WIND,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Christopher A. Curtis, do certify that on this date, August 17, 2020, pursuant to Supreme
Court Rules 29.3 and 29.4, I have served the attached Motion for Leave to Proceed in Forma
Pauperis and Petition for a Writ of Certiorari on each party to the above proceeding, or that party's
counsel, and on every other person required to be served. I have served the Supreme Court of the
United States via Federal Express, priority overnight. The Solicitor General and the petitioner were
each served by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid. Assistant United States
Attorney Brian W. Portugal has been served by email, per his request.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

1

Brian W. Portugal
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, TX 75242
brian.portugal@usdoj.gov

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

/s/ Christopher A. Curtis
Christopher A. Curtis**
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 75202
(817) 978-2757
(817) 978-2753

Counsel of Record

2

